         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Use of American Recovery and
Reinvestment Act of 2009 Funds on
Solid Waste Project Activities at the
Department of Energy's Hanford Site




OAS-RA-L-11-08                       May 2011

 
DOE F 1325.8
 
(08­93) 
United States Government	                                                              Department of Energy


Memorandum

        DATE:    May19, 2011	                                          Audit Report Number: OAS-RA-L-11-08
    REPLY TO
    ATTN OF:     IG-34 (A10RA041)
     SUBJECT:	   Report on "Use of American Recovery and Reinvestment Act of 2009 Funds on Solid Waste

                 Project Activities at the Department of Energy's Hanford Site"

           TO:   Assistant Secretary for Environmental Management

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy's (Department), Richland Operations Office (Richland), awarded a
                 contract, effective October 1, 2008, to CH2M HILL Plateau Remediation Company (CHPRC) to
                 remediate Hanford's Central Plateau. Part of the contract's scope included solid waste cleanup
                 activities associated with retrieval, treatment, and disposal of low-level and transuranic (TRU)
                 waste at the Hanford Site (Hanford).

                 The Department allocated $315 million in American Recovery and Reinvestment Act of 2009
                 (Recovery Act) funds to support Hanford's Solid Waste Project under the CHPRC contract. The
                 Department's goals for Recovery Act funds were to accelerate cleanup, reduce life-cycle project
                 costs, and provide jobs to stimulate the economy. Performance metrics were established to
                 measure actual work accomplished, as compared to planned, and to determine if goals were met
                 for Recovery Act funds obligated to the Solid Waste Project. Because of this significant
                 increase in funding, we initiated this audit to determine if the Department effectively managed
                 Hanford's Solid Waste Project Recovery Act activities.

                 CONCLUSION AND OBSERVATIONS

                 Our review of the Hanford Solid Waste Project did not identify material issues of compliance
                 with Recovery Act requirements, including segregation of funds. However, we noted that the
                 Hanford Solid Waste Project is behind schedule for retrieving and shipping some waste and is at
                 risk of not achieving its accelerated waste disposal goals. Specifically, the Department is on
                 average 2 months behind schedule and $4.4 million over budget for two components of the
                 overall effort – the TRU Waste and Mixed Low Level Waste Treatment subprojects.

                 Department officials told us that they plan to implement a number of procedures designed to
                 recapture the cost and schedule slippages we identified.
                               Solid Waste Performance Goals


Although the Department had met its goal to retrieve remote-handled TRU waste, and is on
track to meet its goals for TRU waste repackaging and contact-handled TRU waste disposal,
it is behind schedule for contact-handled TRU waste retrieval and mixed low level waste
shipping. In particular, CHPRC:

   •	 Is behind schedule on the Department's goal of retrieving 2,500 cubic meters of
      contact handled TRU waste by September 30, 2011. As of March 2011, CHPRC had
      only retrieved 846 cubic meters of waste and had only 6 months remaining to retrieve
      the remaining 1,654 cubic meters of waste. Based on the remaining waste to be
      retrieved, CHPRC will need to average 275 cubic meters per month through
      September 30, 2011, to meet the overall 2,500 cubic meter goal; a retrieval level it
      has not achieved since Recovery Act funds became available. Management
      acknowledged that as of March 2011, the metric indicated that only one-third of the
      waste had been retrieved, but stated that much progress had been made in performing
      preparatory steps necessary to begin to quickly add additional volumes of waste
      toward meeting the goal. Thus, management believes the project is further along
      than the performance metric indicates.

   •	 May not be able to meet the Department's goal of shipping 1,800 cubic meters of
      mixed low-level waste by September 30, 2011. As of March 2011, CHPRC's
      shipment of a cumulative total of 1,249 cubic meters was behind its target value of
      1,427 cubic meters cumulative for that date. We noted that CHPRC was initially able
      to ship from its backlog of mixed low-level waste that was in storage. However, for
      the remaining waste volumes, CHPRC will first have to retrieve waste from burial
      grounds, which will be more difficult and time consuming. In our opinion, this will
      make it more difficult to meet its performance goal of shipping 1,800 cubic meters of
      mixed low-level waste by September 30, 2011. Management informed us that it is in
      the process of identifying additional volumes of alternate feed material that may be
      used to meet this goal.

PLANNED ACTIONS

Hanford's Solid Waste Project faced formidable obstacles in meeting its performance goals.
Specifically, many of the waste boxes retrieved by CHPRC were in a much more
deteriorated condition than was envisioned under the contract. Furthermore, the contractors
proposed use of the Trench Face Process System, which would repack waste at the retrieval
site into standard waste boxes that were compliant with the Waste Isolation Pilot Plant's
(WIPP) requirements for disposal at that site, was a new technology that did not prove to be
as successful as initially envisioned.

According to management officials, Richland has implemented procedures to bring the
contact-handled waste retrieval back on schedule, including adjusting procedures for
handling TRU waste and evaluating various options, such as using an off-site treatment
facility to repackage the waste into standard waste boxes. In addition, Richland is currently
going through a waste certification audit that would allow waste repackaged into standard


                                        2

waste boxes to be certified for disposal at WIPP. Waste repackaged and certified into
standard waste boxes would reduce the number of shipments, and save valuable space at the
WIPP disposal facility.

We believe that the Department's planned actions, if successfully implemented, should help
mitigate the issues we identified. Therefore, we have no further recommendations for
corrective action and a formal response is not required. We do, however, suggest that
management closely monitor implementation of planned actions. We appreciate the
cooperation of your staff and the Department elements that provided information or
assistance.




                                      Daniel M. Weeber, Director
                                      Environment, Technology, and
                                        Corporate Audits Division
                                      Office of Inspector General

Attachment

cc:	 Assistant Director, Office of Risk Management, CF-80
     Team Leader, Office of Risk Management, CF-80
     Audit Resolution Specialist, Office of Risk Management, CF-80
     Audit Liaison, Office of Environmental Management, EM-4.1
     Audit Liaison, Richland Operations Office




                                      3

                                                                                         Attachment



SCOPE AND METHODOLOGY

This review was performed between September 23, 2010, and May 4, 2011, at the Department of
Energy's (Department) Richland Operations Office (Richland) in Richland, Washington. The
scope of our audit included a review of Richland's use of the American Reinvestment and
Recovery Act of 2009 (Recovery Act) funds on Solid Waste Project Activities. To accomplish the
objective of this audit, we:

   •	 Obtained and reviewed laws and regulations relevant to the Recovery Act;

   •	 Obtained and reviewed the Department's Office of Management and Budget and Richland's
      implementing procedures concerning Recovery Act requirements;

   •	 Reviewed findings from prior audits regarding Recovery Act activities;

   •	 Reviewed the CH2M HILL Plateau Remediation Company contract with Richland;

   •	 Held discussions with Department and contractor officials regarding Recovery Act

      activities for the Solid Waste Project; and,


   •	 Performed transaction testing for Solid Waste Project Recovery Act transactions.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable based for our
findings and conclusions based on our audit objective. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We also assessed performance measures in accordance with the Government
Performance and Results Act of 1993 and found that the Department had established performance
measures related to the use of Recovery Act funds for environmental management projects. We
did not rely upon computer processed data to accomplish our audit objective.

The exit conference was waived on May 4, 2011.




                                              4

                                                                      IG Report No. OAS-RA-L-11-08


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

     1.	 What additional background information about the selection, scheduling, scope, or
         procedures of the inspection would have been helpful to the reader in understanding this
         report?

     2.	 What additional information related to findings and recommendations could have been
         included in the report to assist management in implementing corrective actions?

     3.	 What format, stylistic, or organizational changes might have made this report's overall
         message more clear to the reader?

     4.	 What additional actions could the Office of Inspector General have taken on the issues
         discussed in this report which would have been helpful?

     5.	 Please include your name and telephone number so that we may contact you should we have
         any questions about your comments.


Name	                                             Date

Telephone	                                        Organization


When you have completed this form, you may telefax it to the Office of Inspector General at (202)
586-0948, or you may mail it to:

                                 Office of Inspector General (IG-1)
                                       Department of Energy
                                      Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.

The Office of Inspector General wants to make the distribution of its reports as customer friendly and
 cost effective as possible. Therefore, this report will be available electronically through the Internet
                                        at the following address:

                 U.S. Department of Energy Office of Inspector General Home Page
                                     http://www.ig.energy.gov

    Your comments would be appreciated and can be provided on the Customer Response Form
                                   attached to the report.
